gbkh

B. Russ Horton
1100 Norwood Tower I 114 West 7th St I Austin, Tx 78701
512.495,1400 I FAX 512,499.0094 I RHorton@gbIth.com I WWW.GBKH.COM

GEORGE BROTHERS
KINCAID & HORTON LLP

March 17, 2021
Via Federal Express
Mr. Scott S. Harris
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001.
Re:

City of Austin, Texas
v. Reagan National Advertising of Texas, Incorporated, et al.
No. 20-1029

Dear Mr. Harris:
In response to your 'Memorandum Concerning the Deadlines for Cert Stage Pleadings and
the Scheduling of Cases for Conference, dated February 2020, and your letter dated March 12,
2021, Respondents, Reagan National Advertising of Texas, Incorporated, et al. request a 30-day
extension to file their response.
I am currently not admitted to practice in the Supreme Court of the United States.
However, I plan to submit my request to be admitted in the next few days.
According to your letter dated March 12, 2021, Respondents' response is due on or
before April 12, 2021. Respondents request a 30-day extension, making our new response due
date on or before May 12, 2021.
Mr. Renea Hicks, Counsel for Petitioner, City of Austin, Texas, has stated Petitioner does
not oppose this request for a 30-day extension.
If you have any questions or need additional information, please let us know.
Yours sincerely,
George Brothers Kincaid & Horton, L.L.P.

B. Russ Horton
cc:

Mr. Renea Hicks (for Petitioner)
Mr. J. Allen Smith (for Respondent Lamar)

RECEIVED
Board Certified in Civil Trial Law and Personal Injury Trial Law I Texas Board of Legal Specialization

MAR 1 9 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

